                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     Weak Management of a
                     Climate Change Services
                     Contract Creates Risk
                     EPA Did Not Receive Services
                     for Which It Paid
                     Report No. 14-P-0272                   May 30, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                Hilda Canes Garduño
                                                    Ming Chang
                                                    Eric Lewis
                                                    Byron Shumate




Abbreviations

COR           Contracting Officer’s Representative
EPA           U.S. Environmental Protection Agency
EPAAR         EPA Acquisition Regulation
FAR           Federal Acquisition Regulation
G&A           General and Administrative
MPRs          Monthly Progress Reports
OAM           Office of Acquisition Management
OARM          Office of Administration and Resources Management
OIG           Office of Inspector General
SOW           Statement of Work
T&M           Time-and-materials



Hotline                                        Suggestions for Audits or Evaluations
To report fraud, waste or abuse, contact us    To make suggestions for audits or evaluations,
through one of the following methods:          contact us through one of the following methods:

email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
phone:    1-888-546-8740                       phone:    1-202-566-2391
fax:      1-202-566-2599                       fax:      1-202-566-2599
online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

write:    EPA Inspector General Hotline        write:    EPA Inspector General
          1200 Pennsylvania Avenue, NW                   1200 Pennsylvania Avenue, NW
          Mailcode 2431T                                 Mailcode 2410T
          Washington, DC 20460                           Washington, DC 20460
                        U.S. Environmental Protection Agency                                                 14-P-0272
                                                                                                           May 30, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review               Weak Management of a Climate Change
The U.S. Environmental               Services Contract Creates Risk EPA Did Not
Protection Agency’s (EPA’s)          Receive Services for Which It Paid
Office of Inspector General
conducted this review to              What We Found
assess agency controls and
processes for managing a time-       The EPA lacks a process to verify that             The EPA awards millions of
and-materials (T&M) contract.        contractor personnel had the skill level to        federal dollars to contractors
We selected one contract to          satisfy contract requirements. We reviewed all     every year. It must have
determine whether: (1) the EPA       93 task orders for contract EP-W-07-067 and        robust oversight and
has procedures that require the      focused on task order 25. The task order 25        management controls in
verification of contractor           review revealed several problems:                  place to prevent waste and
personnel as having the                                                                 unnecessary spending.
qualifications and credentials           The task order did not list any employees
specified in the contract;                named in reviewed invoices.
(2) the implementation of that           The EPA repeatedly modified the task order to increase funding from an
verification process is effective;        initial estimate of $310,917 to over $2,000,000.
and (3) the EPA received the             The contracting officer’s representative for task order 25 accepted the
level of services for which the           contractor’s deliverables without documenting a review of the contractor’s
agency paid.                              personnel qualifications in comparison with the labor categories invoiced.
                                         The task order was closed without all deliverables being met.
The contract, EP-W-07-067
(“Technical and Outreach             In the contract we reviewed, the official contract file was incomplete, the
Support Services for Domestic        determination and findings document did not properly justify the use of a T&M
and Global Climate Initiatives       contract, a government-surveillance plan was not created, and a contracting
and Global Climate Change            officer’s representative improperly authorized the disposal of government
Programs”), was awarded by           property. There was almost no contract management after the contract was
the EPA’s Office of                  awarded, and the contracting officer had little involvement with contract
Administration and Resources         administration and delegated most tasks to the contracting officer’s
Management.                          representatives. Given the lack of oversight, contract administration and
                                     documentation, the EPA cannot verify that the contractor provided qualified staff
This report addresses the            for the execution of the contract, which created the risk of the agency not
following EPA goal or                receiving services for which it paid.
cross-cutting strategy:
                                      Recommendations and Agency Response
 Embracing EPA as a high-
  performing organization.           We made eight recommendations to the Assistant Administrator for
                                     Administration and Resources Management to improve, implement or address
                                     agency oversight of contractor personnel, subcontractors, activities and invoices
                                     under T&M contracts; best practices for agency personnel when dealing with
For further information, contact     T&M contract administration; and questionable charges and improper disposal of
our public affairs office at         government property for contract EP-W-07-067. The EPA has agreed with some
(202) 566-2391.                      recommendations and proposed some acceptable corrective actions. However,
                                     information on actions is incomplete and disagreements remain. Therefore, all
The full report is at:               recommendations are unresolved. In its final response to this report, the EPA
www.epa.gov/oig/reports/2014/        must provide additional information, as described in this report, to resolve the
20140530-14-P-0272.pdf               report recommendations.
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                    THE INSPECTOR GENERAL




                                             May 30, 2014

MEMORANDUM

SUBJECT:      Weak Management of a Climate Change Services Contract Creates Risk EPA
              Did Not Receive Services for Which It Paid
              Report No. 14-P-0272

FROM:         Arthur A. Elkins Jr.

TO:           Craig E. Hooks, Assistant Administrator
              Office of Administration and Resources Management

This is our report on the subject evaluation conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit resolution procedures.

The EPA office having primary jurisdiction over the issues evaluated is the Office of Acquisition
Management within the Office of Administration and Resources Management.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this report
within 60 calendar days. You should include planned corrective actions and completion dates for all
unresolved recommendations. Your response will be posted on the OIG’s public website, along with our
memorandum commenting on your response. Your response should be provided as an Adobe PDF file
that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended. The final response should not contain data that you do not want to be released to the public;
if your response contains such data, you should identify the data for redaction or removal along with
corresponding justification. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Carolyn Copper,
Assistant Inspector General for Program Evaluation, at (202) 566-0829 or copper.carolyn@epa.gov;
or Eric Lewis, Director, Special Program Reviews, at (202) 566-2664 or lewis.eric@epa.gov.
Weak Management of a Climate Change Services Contract                                                                          14-P-0272
Creates Risk EPA Did Not Receive Services for Which It Paid




                                      Table of Contents
   Purpose .....................................................................................................................     1

   Background ...............................................................................................................        1

           Rules and Guidance Governing EPA Contracting ...............................................                              1
           Time-and-Materials Contracts.............................................................................                 1
           Responsible Headquarters Office .......................................................................                   2
           Responsibilities of the Contracting Officer ..........................................................                    2
           Responsibilities of the Contracting Officer’s Representative ...............................                              3
           Verification of Contractor Personnel Qualifications .............................................                         4

   Scope and Methodology ...........................................................................................                 4

   Prior Evaluation and Audit Coverage ......................................................................                        5

   Results .......................................................................................................................   6

           EPA Does Not Require Verification of Contractor Personnel
              Qualifications for Time-and-Materials Contracts ............................................                           6
           Contractor Personnel Discrepancies Exist at Multiple Levels
              of the Contracting Process.............................................................................                7
           EPA Cannot Verify Accuracy of Invoiced Charges ..............................................                             7
           Task Order 25 Deliverables Were Vaguely Defined,
               Outside of Scope and Untimely.....................................................................                    10
           Other Issues .......................................................................................................      11

   Conclusions...............................................................................................................        14

   Recommendations ....................................................................................................              15

   Agency Comments and OIG Evaluation ..................................................................                             15

   Status of Recommendations and Potential Monetary Benefits .............................                                           17



 Appendices
   A       Agency Response to Draft Report ..................................................................                        18

   B       OIG Response to Agency Comments .............................................................                             23

   C       Distribution ......................................................................................................       29
Purpose
            The purpose of this review was to assess the controls and processes for managing
            a time-and-materials (T&M) contract at the U.S. Environmental Protection Agency
            (EPA). The Office of Inspector General (OIG) selected one T&M contract to
            determine whether:

                  The EPA has procedures requiring verification that contractor personnel
                   have the qualifications and credentials specified in the contract.
                  The implementation of that verification process is effective.
                  The EPA received the level of services for which it paid.

Background
            A broad range of contract types is available to the government and contractors to
            provide needed flexibility in acquiring the large variety and volume of supplies
            and services that agencies require. Contract types vary according to:

                  The degree and timing of the responsibility assumed by the contractor for
                   the costs of performance.
                  The amount and nature of the profit incentive offered to the contractor for
                   achieving or exceeding specified standards or goals.

            Rules and Guidance Governing EPA Contracting

            The Federal Acquisition Regulation (FAR) is the primary regulation for use by all
            federal executive agencies in their acquisition of supplies and services with
            appropriated funds. The FAR limits agency acquisition regulations to those
            necessary to implement FAR policies and procedures within an agency. The EPA
            Acquisition Regulation (EPAAR) implements and supplements the FAR. The
            EPA’s Contracts Management Manual is an agencywide directive that provides
            guidance primarily to program office personnel.

            Time-and-Materials Contracts

            According to FAR 16.601(b), a T&M contract is one in which supplies or services
            are acquired based on: (1) direct-labor hours at specified fixed hourly rates that
            include wages, overhead, general and administrative (G&A) expenses, and profit;
            and (2) actual cost for materials. The FAR also stipulates in 16.601(c) that a T&M
            contract may be used as a contract vehicle only when it is not possible to
            accurately estimate the extent or duration of the work, or to anticipate costs with
            any reasonable degree of certainty. As such, a T&M contract may be used only
            after the contracting officer produces a “determination and findings” document,
            which verifies that no other contract type is suitable. As of August 2012, the EPA
            had 735 active contracts, of which 142 (about 19 percent) were T&M and labor-



14-P-0272                                                                                        1
                  hour contracts.1 The EPA’s contract obligations for all active contracts totaled
                  over $4.6 billion, of which $1.85 billion (40 percent) were obligated to T&M and
                  labor-hour contracts.

                  Responsible Headquarters Office

                  Within the EPA’s Office of Administration and Resources Management (OARM),
                  the Office of Acquisition Management (OAM) is responsible for policies,
                  procedures, operations and support of the agency’s procurement and contracts
                  management program—from contract planning through closeout.

                  Responsibilities of the Contracting Officer

                  According to FAR 1.601, a contracting officer is the only person who can enter
                  into and sign off on contracts on behalf of the government. The contracting officer
                  also has the authority to enter into, administer and terminate contracts, and to
                  make related determinations and findings. FAR 1.602-1(b) states:

                           No contract shall be entered into unless the contracting officer
                           ensures that all requirements of law, executive orders, regulations,
                           and all other applicable procedures, including clearances and
                           approvals, have been met.

                  The FAR also provides instruction for what contract files should contain,
                  including the original signed contract, modifications, and any additional
                  documents that reflect actions taken by the contracting office. The EPA’s
                  Contracts Management Manual requires the contracting officer to maintain the
                  official contract file through closeout.

                  FAR 1.602-2 outlines the full weight and scope of a contracting officer’s
                  responsibilities:

                           Contracting officers are responsible for ensuring performance of
                           all necessary actions for effective contracting, ensuring compliance
                           with the terms of the contract, and safeguarding the interests of the
                           United States in its contractual relationships. In order to perform
                           these responsibilities, contracting officers should be allowed wide
                           latitude to exercise business judgment.

                  Furthermore, FAR 1.102-4(a) states:

                           … the contracting officer must have the authority to the maximum
                           extent practicable and consistent with law, to determine the
                           application of rules, regulations, and policies, on a specific contract.

1
 FAR 16.602 defines a labor-hour contract as a variation of a T&M contract, differing only in that materials are not
supplied by the contractor.


14-P-0272                                                                                                          2
            In undertaking this effort, many contracting officers rely on the contribution of
            numerous financial, legal and technical experts to assist them.

            Responsibilities of the Contracting Officer’s Representative

            Due to the size and complexity of agency acquisitions, contracting officers
            frequently appoint qualified individuals to assist in contract administration,
            known as contracting officer’s representatives (CORs). The COR is an authorized
            representative of the contracting officer who is nominated by the program office;
            appointed by the contracting officer; and possesses the necessary knowledge,
            skills and abilities to perform COR duties. Although appointed by a contracting
            officer, a COR does not have the authority to enter into contractual agreements or
            amendments. CORs may perform only those functions appointed to them, and
            must not take any action reserved for the contracting officer, such as:

                  Promise or authorize the contractor to perform work that is in addition to
                   or outside the scope of the contract, work assignment, or delivery or task
                   order.
                  Conduct negotiations or bind the government by making any written or
                   oral agreements with contractors.
                  Directly or indirectly change:
                       o Pricing, cost or fee.
                       o Scope of the acquisition (i.e., the contract, purchase order, work
                           assignment, delivery, task order, etc.).
                       o Delivery schedule or period of performance.
                       o Labor mix or level of effort.
                       o Any terms or conditions of the acquisition.
                  Redelegate or reassign COR authority.
                  Authorize government-furnished property or its disposition.
                  Direct the contractor to start work or issue stop-work orders.

            The contracting officer may appoint a contract-level COR, as well as a task-order
            COR. For each task order, the contracting officer may instruct the task-order COR
            to draft the statement of work (SOW) to identify the work that the EPA wants the
            contractor to perform, as well as the independent government cost estimate on
            how much the work might cost. Once the task order is issued, the task-order COR
            may also be tasked with monitoring the contractor’s performance to ensure that
            the EPA obtains a quality product on time and within cost. Monitoring includes
            giving technical direction, reviewing deliverables, and reviewing monthly
            progress reports (MPRs) and invoices.

            CORs should ensure that the skill level and labor mix provided by the contractor
            (i.e., contractor personnel qualifications) meet the specifications in the contract.
            According to the EPA’s Contracts Management Manual, this is accomplished by
            reviewing invoices and MPRs to ensure that the contractor uses the labor skill mix
            (i.e., labor categories and hours) necessary to fulfill government requirements.


14-P-0272                                                                                       3
                    Within a labor category, actual wages or salaries vary from one employee to
                    another, with the more experienced and skilled employees earning higher wages
                    or salaries. If a contract stipulates the need for labor at a particular experience or
                    skill level but a contractor uses lower-paid, less-experienced and less-skilled
                    workers in a labor category, performance may be less efficient or adversely
                    impacted. Additionally, the contractor will be paid for a level of service not
                    delivered.

                    Verification of Contractor Personnel Qualifications

                    The EPA’s regulations and guidance do not specifically require the agency to
                    verify contractor staff qualifications or provide procedures for doing so. However,
                    the regulations and guidance do oblige the EPA to make some assessment of
                    contractor personnel qualifications, obtain resumes of contractor personnel, or
                    evaluate contractor personnel qualifications. For example:

                            For T&M contracts, FAR 52.232-7(a) requires hourly rates to be paid for
                             all labor performed on the contract that meets the labor qualifications
                             specified in the contract. Under 11.2.3 of the EPA’s Contracts
                             Management Manual, the contracting officer has ultimate responsibility
                             for invoice processing under individual contracts. However, OAM’s
                             policy of not verifying contractor personnel qualifications and labor rates
                             is inconsistent with the FAR.
                            Text from chapter 3 of the EPA’s Contracting Officer’s Representative
                             (COR) Basic Training Course Text advises that CORs should consider
                             contractor personnel qualifications and can ask the contractor to submit
                             resumes of proposed personnel.
                            The EPA’s Contracts Management Manual, 16.2.5.6(A), states that the
                             technical component of an offer should include a staffing plan, as well as
                             resumes of key personnel (if key personnel are identified).2
                            When deciding to award a contract, FAR 15.305(a)(2)(iii) requires the
                             agency to evaluate relevant predecessor companies, proposed key
                             personnel or proposed subcontractors as a selection criterion.
                            When issuing a contract, EPAAR Section 1552.237-72 requires the
                             contracting officer to insert a contract clause naming key personnel, and
                             requires the contractor to notify the contracting officer in the event of key
                             personnel replacement.

Scope and Methodology
                    We conducted our review from June 2011 through October 2013, in accordance
                    with generally accepted government auditing standards issued by the Comptroller
                    General of the United States. Those standards require that we plan and perform
                    the review to obtain sufficient, appropriate evidence to provide a reasonable basis

2
    Key personnel are individuals who have major contract responsibilities or provide unusual or unique expertise.


14-P-0272                                                                                                            4
                 for our findings and conclusions based on our objectives. We believe that the
                 evidence obtained provides a reasonable basis for our findings and conclusions
                 based on our review objectives.

                 We selected one T&M contract for review: EP-W-07-067 (“Technical and
                 Outreach Support Services for Domestic and Global Climate Initiatives and
                 Global Climate Change Programs”), which was issued by OARM. We chose to
                 review this contract due to its dollar value. Based on OAM’s active contract list at
                 the time we began the review, and as of August 2011, $25.10 million has been
                 obligated and $25.05 million paid.3 The contract may not exceed $30.9 million.

                 We conducted interviews with relevant EPA staff from OARM, the Office of the
                 Chief Financial Officer, and the Office of Air and Radiation. This included
                 interviews with the contracting officer for the contract and the COR for task
                 order 25. We obtained and reviewed contract documents, including the pre-award
                 file, award file, all task orders (totaling 93), and 11 MPRs and associated invoices
                 for task order 25 submitted from October 2010 through September 2011. We
                 chose task order 25 for further review due to its high cost of over $2 million. We
                 also reviewed the regulations and agency guidance pertaining to the management
                 of T&M contracts.

Prior Evaluation and Audit Coverage
                 The following OIG reports addressed issues related to the scope of our review:

                        Report No. 09-P-0242, Contractor Invoice Internal Controls Need
                         Improvement, September 23, 2009.
                        Report No. 10-R-0113, EPA Should Improve Its Contractor Performance
                         Evaluation Process for Contractors Receiving Recovery Act Funds,
                         April 26, 2010.
                        Report No. 12-P-0320, Policies Needed for Proper Use and Management
                         of Cost-Reimbursement Contracts Based on Duncan Hunter Act,
                         March 6, 2012.
                        Report No. 12-P-0407, Great Lakes National Program Should Improve
                         Internal Controls to Ensure Effective Legacy Act Operations,
                         April 9, 2012.
                        Report No. 13-P-0208, EPA Should Increase Fixed-Price Contracting for
                         Remedial Actions, March 28, 2013.
                        Report No. 13-P-0209, Opportunities for EPA-Wide Improvements
                         Identified During Review of a Regional Time and Materials Contract,
                         April 4, 2013.




3
 As of September 18, 2013, this was the most current information available from the EPA Compass Data
Warehouse.


14-P-0272                                                                                              5
Results
                  Weak management and oversight of contract EP-W-07-067 put the EPA at risk of
                  not receiving services for which the agency paid. We found the agency has no
                  uniform process in place to verify contractor personnel qualifications. Absent a
                  process, we found contractor personnel discrepancies throughout the contract
                  files. We also found that the EPA could not verify the accuracy of invoiced
                  charges.

                  Analysis of monthly invoice subsamples revealed problems with labor costs,
                  G&A costs, and subcontractor costs. Task order 25 deliverables were vaguely
                  defined, outside of scope and untimely. From an initial cost ceiling of $310,917,
                  task order 25 costs grew to more than $2,000,000, and the period of performance
                  was extended by almost 3 years. Task order 25 closed without all deliverables
                  being met, and another task order was opened, in part, to address lingering items.

                  During the course of our review, we identified problems beyond those associated
                  with our objectives. We found a lack of proper records management for the
                  selected contract. The determination and findings document did not justify the use
                  of a T&M contract. The agency also did not create the quality assurance
                  surveillance plan required of a T&M contract. Finally, we found that the task
                  order 25 COR improperly authorized the disposal of government property.

                  EPA Does Not Require Verification of Contractor Personnel
                  Qualifications for Time-and-Materials Contracts

                  We found that the agency has no uniform process in place to verify contractor
                  personnel qualifications. OAM management told us the contractor is responsible
                  for ensuring that all staff, other than key personnel, are qualified to perform work
                  under the contract. Rather than verifying contractor qualifications, EPA staff
                  stated they relied on personal judgment and information contained in the contract.
                  A contracting officer we interviewed told us that verifying the qualifications of
                  contracting staff billed under the contract was not required; it was the contractor’s
                  responsibility to find qualified personnel for a given contract. The COR for task
                  order 25 also told us that verifying the qualifications of contractor staff was not
                  required because the field was small and there was familiarity with those working
                  in the field. 4




4
  OIG Report No. 13-P-0209 recommended that OAM require task order CORs to evaluate the qualifications of
contractor key staff proposed by the contractor in the work plan, and to review qualifications for samples of non-key
staff billed on invoices. This recommendation has been resolved with OAM. Therefore, we did not make a similar
recommendation in this report.


14-P-0272                                                                                                           6
            Contractor Personnel Discrepancies Exist at Multiple Levels of the
            Contracting Process

            We found that the documentation of contractor and related personnel
            qualifications was insufficient for both contract-level modifications and the
            contract-level proposal. The contract formally named only two contractor
            employees—the program manager and the deputy program manager—as key
            personnel, while the contract and contract-level modifications approved the use of
            23 subcontractors and 31 consultants. In addition, the contractor’s proposal named
            nearly 200 employees, but only 111 employee resumes were included. OAM
            management confirmed that it only requires key personnel to be named.

            We examined the 93 task orders issued under the contract and found additional
            personnel issues. For example:

                  We were unable to determine which contractor employees managed 23 of
                   the 93 task orders because the information was not contained in task order
                   files.

                  The contract-level documentation did not name 69 percent of the
                   employees proposed for task-order work, including six managers;
                   46 percent of all consultants and subcontractors named in the task orders
                   were not named and approved in either the contract or contract-level
                   modifications.

                  We could not properly account for many contractor employees named in
                   the task orders. Of the 178 employees named in task-order files, 46 lacked
                   labor classifications. Task orders provided some sort of description for
                   most named employees, but we were unable to find resumes for 158 of
                   178 employees. Five employees named in the task orders lacked
                   descriptions or resumes.

            We also noted problems involving contractor personnel in our focused review of
            task order 25 and invoices. Task order 25 documentation did not name any of the
            23 employees billed in the invoices. Of these 23 employees, 9 accounted for
            70 labor hours and $10,169 charged, but none of the 9 employees were named
            anywhere in the contract documentation. In addition, the contractor charged
            2,462 labor hours and $370,765 to labor categories under a subcontractor not
            given subcontracting consent by EPA.

            EPA Cannot Verify Accuracy of Invoiced Charges

            We found invoice and MPR reviews lacking at the contracting officer and COR
            levels. The contracting officer told us that invoice review was conducted solely by
            the CORs. The COR for task order 25 did not document his review of MPRs,
            invoices or deliverables. Analysis of monthly invoice subsamples revealed


14-P-0272                                                                                      7
            problems with labor, G&A and subcontractor costs. Overall, we found that the
            contracting officer and the COR were unable to track invoiced costs against
            activities reported in MPRs. OAM management confirmed that it does not require
            contracting personnel to verify invoices. Specifically, it was the contractor’s
            responsibility to ensure that the invoices were correct.

                   Labor Costs

                   Review of task order 25 labor invoices disclosed the following
                   questionable costs:

                         The task order did not list any of the 23 employees named in the
                          invoices, and nine employees (accounting for 70 labor hours and
                          $10,169 charged) were not named elsewhere in the contract file.

                         The contractor charged 2,462 labor hours and $370,765 to labor
                          categories under a subcontractor not given subcontracting consent
                          by EPA, which accounted for 86 percent of labor cost.

                         In two instances, contractor employees charged for labor at a
                          higher-paying labor category than the category listed for the
                          employee in the contract file. For two other contractor employees,
                          labor rates inexplicably increased between monthly invoices. There
                          is no documentation to show that the contracting officer approved
                          these increases.

                   When we noted that work was billed by a subcontractor whose name never
                   appeared in the approved subcontractor list, the contracting officer and
                   COR both explained that the subcontractor had been previously known by
                   another name that was listed. When we asked the contracting officer about
                   verification of the subcontractor name change, we were provided with a
                   2010 letter from the subcontractor giving notice of a name change.
                   However, the previous name did not match the name of the approved
                   subcontractor in the contract. No name change was documented in a
                   contract modification. When we asked why there was no modification to
                   explain the name change, the COR said that as long as he knew the
                   subcontractor the lack of documentation did not concern him.

                   The contracting officer for the selected contract had little involvement in
                   contract administration and delegated most duties, including invoice
                   review, to the program office CORs. The COR for task order 25 relied on
                   informal methods to determine whether the EPA was properly invoiced
                   and contract specifications for deliverables were met. However, the COR
                   did not document the review of invoices or the contractor’s monthly
                   progress. Consequently, the effectiveness of the COR’s review cannot be
                   verified.


14-P-0272                                                                                        8
            In the absence of consistent documentation on the contractor’s monthly
            progress and the quality of deliverables, the EPA is at risk of not knowing
            whether: (1) contractor performance was adequate, (2) the contractor was
            performing work within an estimated cost, or (3) properly qualified
            individuals were performing the work.

            In the event another COR has to take over this task order, there is no
            documentation of past performance with which the new COR can verify
            the qualifications of contractor personnel or the quality of the deliverables.

            G&A Costs

            We found the agency vulnerable to being double charged for G&A
            expenses. The contract language not only states that G&A expenses
            should be calculated into established labor rates, the language also
            establishes that “G&A/material-handling expenses” for other direct costs
            may also be applied. The additional G&A expenses listed in the invoices
            are in a separate section and unrelated to either the labor hour or the other
            direct costs sections. Furthermore, these charges are not explained
            elsewhere in the MPRs or invoices. When asked, the contracting officer
            was unable to clarify these issues. Based on the invoices we sampled for
            task order 25, we found $5,590 in questionable G&A expenses.

            Subcontractor Costs

            The lack of proper oversight created vulnerability to subcontractor
            overcharges. The contract states that invoiced charges for subcontracts
            shall be further detailed in a supporting schedule that shows major cost
            elements for each subcontract. However, we were unable to locate any
            such detail in the invoices. In addition, two of the three subcontractors
            named in the MPRs were not listed in contract documentation as approved
            subcontractors. Based on the invoices we sampled for task order 25, we
            found $163,969 in questionable subcontractor charges.

            EPA Does Not Require the Contractor to Justify Lagging Costs

            We could not track invoiced costs against activities reported in
            corresponding MPRs. For subcontractor labor, numerical labor hour
            estimates were not supplied alongside the work summaries from MPR
            subcontractors. When supplied for contractor labor, these estimates were
            exceeded by invoiced amounts. Specifically, tracking expenses was
            confounded by the accumulation of “lagging costs,” which were defined
            by the contracting officer as costs that have been incurred during the
            billing period associated with the invoice but have not yet been included in
            the invoice.



14-P-0272                                                                                   9
                   However, we found repeated instances where invoices would partially
                   cover expenses from previous reporting periods without stating to which
                   activities or reporting periods the invoiced quantities applied. As a result,
                   it was not possible to match any invoiced charge with any specific activity
                   described in a current or previous MPR—making it difficult to determine
                   if the charges are legitimate.

                   The EPA’s contracting personnel were unable to adequately explain these
                   issues. The COR for task order 25 said lagging costs were tracked
                   informally (i.e., the COR used professional knowledge of material costs,
                   and discerned the quality of deliverables and matched them to the labor
                   categories billed). However, the COR could not provide documentation to
                   demonstrate the accuracy of this method. When asked, the contracting
                   officer showed a lack of understanding with respect to how lagging costs
                   were actually tracked.

            Task Order 25 Deliverables Were Vaguely Defined, Outside of Scope
            and Untimely

            The task order 25 file did not clearly describe expected deliverables. The
            deliverables were delayed, subject to vague timelines, and at times progress
            toward the completion of the deliverables was inadequately explained. The EPA
            repeatedly modified task order 25 to increase funding. From an initial cost ceiling
            of $310,917, task order 25 costs grew to over $2,000,000, and the period of
            performance was extended by almost 3 years. Task order 25 closed without all
            deliverables being met, and another task order was opened, in part, to address
            lingering items.

            We found that task order 25 paperwork was too disorganized to clearly determine
            task order deliverables. The agency never specified which of the three SOWs
            present in the task order 25 file was being followed (each SOW specified different
            deliverables). When the EPA issued its proposal request for task order 25, the
            agency included a preliminary SOW for prospective contractors. The contractor
            also submitted a more detailed, tentative SOW as part of its proposal to win task
            order 25. The EPA’s official task order documentation makes no mention of the
            contractor’s SOW, but includes a copy of the EPA’s preliminary SOW. In
            addition, we found a revised contractor-prepared SOW with the paperwork for
            task order modification 2, but the EPA modification documentation again failed to
            reference this revision.

            The COR for task order 25 did not ensure that contractor deliverables were
            consistent with the deliverables listed in the SOWs. For instance, without a
            contracting officer’s endorsement, the COR approved the addition of two
            deliverables outside of the SOWs. The COR also approved the removal of two
            deliverables without a contracting officer’s endorsement. There was no


14-P-0272                                                                                     10
            documented contracting officer’s approval for either of these actions in the task
            order 25 file. By authorizing the completion of deliverables not listed in the
            SOWs, and by agreeing to cancel deliverables that were in fact listed in the
            SOWs, the COR made unauthorized commitments.

            Deliverables were plagued with delays and uncertain timelines. In the MPRs
            made available to us, we found that four draft subtask-level deliverables were at
            least 18 months late. The contractor failed to supply delivery dates for six other
            draft deliverables within the same subtask. Revised and final deliverables within
            this subtask were due within 2 weeks of receiving comments. However, these
            deadlines are not discernible because the MPRs do not include the dates the
            comments were received. As of the projected completion date for task order 25,
            one final deliverable had not been received.

            We found that deliverables associated with another subtask could not be clearly
            tracked with the information we were given. Numerous subtasks described in the
            MPRs were never attributed to their applicable SOW task or subtask. In addition,
            there was nothing in the MPRs to suggest that another task had been completed or
            any of the deliverables supplied.

            The contracting officer for the selected contract did not properly administer the
            contract and oversee the work being conducted by the COR. The contracting officer
            seemed unaware of the actions taken by the COR for task order 25, and explained
            that the Office of Air and Radiation preferred that contracting officers not contact
            CORs directly but instead communicate through an Office of Air and Radiation
            contract-level COR. Although the selected contract was in its final few months, the
            contracting officer had not met the task order 25 COR in person at the time of our
            review, even though both individuals were located in Washington, D.C.

            Other Issues

            During the course of our review, we identified problems beyond those associated
            with our objectives.

                   Contract Files Were Incomplete

                   We found a lack of proper records management for the selected contract.
                   The maintenance of complete and accurate project files is essential for
                   managing all contractor work. The FAR provides instruction for what
                   contract files should contain. The EPA’s Contract Management Manual
                   lists contracting officer responsibilities, which include maintaining the
                   official contract files through contract closeout. FAR 4.801(b) states that
                   the documentation in files shall be sufficient to constitute a complete
                   history of the transaction for the purpose of:




14-P-0272                                                                                       11
                  Providing a complete background as a basis for informed decisions
                   at each step in the acquisition process.
                  Supporting actions taken.
                  Providing information for reviews and investigations.
                  Furnishing essential facts in the event of litigation or congressional
                   inquiries.
            FAR 4.803(a) and 4.803(b) provide examples of records normally
            contained in contract files. These records include a copy of the contract
            and all modifications, performance and payment documents, documents
            pertaining to actions taken by the contracting officer, quality-assurance
            documents, and cross-references to other pertinent documents filed
            elsewhere.

            The contracting officer was unable to locate or produce copies of the
            following documentation:

                  The original, signed contract.
                  Signed, contract-level modifications.
                  MPRs and associated invoices for the years prior to the contracting
                   officer’s assignment to the contract.
                  The MPR and associated invoice for April 2010 (part of the year’s
                   worth of MPRs and associated invoices that we requested for
                   review), during which the contracting officer was assigned to this
                   contract.

            When the contract file is incomplete, the ability to make informed
            decisions about a contract is compromised, increasing the risk of waste
            and fraud. For example, without MPRs, the EPA cannot verify whether the
            $25.05 million paid was appropriate. Similarly, the EPA cannot check
            approved subcontractor identities and subcontracting procedures against
            those proposed for task orders without a copy of the contract file and
            modifications.

            Determination and Findings Document Did Not Justify
            Use of T&M Contract

            A determination and findings document is necessary to use a T&M
            contract. However, the determination and findings lacked elements
            required to justify the use of a T&M contract.

            FAR 16.601(d)(1) states that a T&M contract may be used only if the
            contracting officer prepares a determination and findings that says no
            other contract type is suitable. However, the determination and findings
            document made no mention of T&M and concluded that the contract be
            awarded on a fixed rate, indefinite-delivery/indefinite-quantity basis.


14-P-0272                                                                               12
            Moreover, the determination and findings must be approved by the head of
            the contracting activity when the contract base period (plus any optional
            periods) exceeds 3 years, which was the case with the selected contract.
            The “head of the contracting activity” is a role assigned to the director of
            OAM in Section 1.2.4(D) of the EPA’s Contract Management Manual. In
            the case of the selected contract, the determination and findings document
            was never approved by the head of contracting, but by a previous
            contracting officer.

            In addition, FAR 12.207(c)(3) states that if an indefinite-delivery contract
            only allows for the issuance of orders on a T&M or labor-hour basis, the
            determination and findings must be executed to support the basic contract
            and: (1) explain why providing for an alternative firm, fixed price or fixed
            price with an economic price adjustment pricing structure is not
            practicable; and (2) be approved one level above the contracting officer.
            The EPA never addressed these aspects.

            EPA staff said T&M was necessary for this contract because contract task
            orders contained too many unknown and unforeseen factors. The OIG
            agrees that firm, fixed-price contracts lend themselves to a well-defined
            scope of work and that not all tasks can be firm, fixed price. However, we
            do not agree with the EPA that the contract did not lend itself to firm,
            fixed pricing, given how many years the same services have been
            performed. The lack of proper contract planning and oversight on the part
            of OAM and the program office resulted in a determination and findings
            that inadequately justified the use of the T&M contract. Therefore, the
            EPA is not taking the required steps to show that it is using fixed-price
            contracting to the maximum extent possible.

            Government Surveillance Plan Was Never Created

            The EPA did not create a government quality assurance surveillance plan
            for this contract although the FAR requires one for T&M contracts.
            When asked why there was no surveillance plan, the contracting officer
            responded that the contract clauses constitute the surveillance plan.
            We believe the contract clause does not provide surveillance, but rather
            documents contract requirements. In the absence of a government
            surveillance plan, there is a lack of assurance that costs were fair and
            reasonable, that work was performed to government standards, or that
            deliverables described in the SOWs were delivered by the contractor as
            agreed to in the contract.




14-P-0272                                                                             13
                   Task Order 25 COR Improperly Authorized Disposal of
                   Government Property

                   The task order 25 COR improperly authorized the disposal of government
                   property. At the conclusion of a project, the COR authorized the foreign
                   parties using the supplies to keep or sell property too expensive to ship
                   back to the United States or deemed beyond acceptable re-use. We found
                   no documented inventory of contractor-purchased materials or records
                   showing disposal actions. The contracting officer did not know the COR
                   had given away the property until the contractor relayed the information.

                   FAR 45.402(b) establishes that, under a T&M contract, the government
                   acquires title to all property for which the contractor is entitled to
                   reimbursement as a direct item of cost under the contract. Under EPAAR
                   Section 1552.245–70(b)(10), the contractor is required to update all
                   property records to show disposal action. A corresponding clause was
                   found in the contract as well.

                   CORs may perform only those functions appointed to them and must not
                   take any action reserved for the contracting officer—such as the disposal
                   of government property. The COR appointment memo, signed by the COR
                   for task order 25, clearly forbids the COR from authorizing delivery or
                   disposition of government-furnished property. The contracting officer for
                   the selected contract did not properly administer the contract and oversee
                   the work being conducted by the COR.

Conclusions
            For the T&M contract reviewed, the EPA cannot determine the accuracy of
            invoiced charges. The EPA did not properly keep contract files, and had no
            formal process to ensure the integrity of contract files when they were transferred
            between contracting officers. In addition, OAM did not properly oversee aspects
            of the contract’s pre-award phase, improperly justifying the use of a T&M
            contract and failing to include the FAR-required government quality assurance
            surveillance plan. The EPA conducted almost no contract management after the
            contract was awarded because the contracting officer had little involvement in
            contract administration, choosing instead to delegate most tasks to the CORs.
            Given the lack of oversight, contract administration and documentation, the EPA
            cannot verify if the contractor provided qualified staff for the execution of the
            selected contract.

            Based on the small number of invoices we sampled for task order 25, we found
            questionable costs, including G&A expenses totaling $5,590 and subcontractor
            charges totaling $163,969.




14-P-0272                                                                                    14
Recommendations
            We recommend that the Assistant Administrator for Administration and
            Resources Management:

               1. Require that activities, personnel and subcontractors proposed by
                  contractors at the contract and task order levels be officially endorsed in
                  task order documentation.

               2. Require that changes in contractor personnel and subcontractors at the
                  contract and task order levels are officially established by modification.

               3. Require that CORs document a thorough and consistent review of work
                  plans, MPRs, invoices, receipts and deliverables.

               4. Beginning with the questionable G&A expenses ($5,590) and
                  subcontractor charges ($163,969) in the invoices we sampled, conduct a
                  review of all invoices from contract EP-W-07-067 to determine if the EPA
                  overpaid for G&A costs, other direct costs, lagging costs and
                  subcontracting costs.

               5. Develop and implement procedures to maintain a complete contract file
                  when transferred between contracting officers.

               6. Require that T&M contracts abide by FAR requirements, such as having a
                  determination and findings document and a government quality assurance
                  surveillance plan.

               7. Conduct a contract-wide review of contract EP-W-07-067 to determine if
                  government property was improperly disposed.

               8. Develop and implement new or additional training for EPA acquisition
                  personnel to communicate new requirements or expectations that arise
                  from the recommendations and findings in this report.

Agency Comments and OIG Evaluation
            The action official concurred with recommendations 3, 4, 5, 6, 7 and 8 but did not
            provide a position (agreement or disagreement) for recommendations 1 or 2. We
            consider all eight recommendations to be unresolved. For recommendations 4
            and 7, the agency did not supply an estimated completion date for its planned
            corrective actions. Recommendations 1, 2, 3, 5, 6 and 8 require corrective action
            revisions along with estimated completion dates once acceptable corrective
            actions are identified. The agency’s comments on the draft report are in
            appendix A and the OIG’s detailed responses to the agency’s draft report
            comments are in appendix B.


14-P-0272                                                                                       15
            Prior to issuing this final report, we met with OARM staff and officials to discuss
            their draft report comments, communicate the OIG’s information needs, and
            attempt to reach resolution on the recommendations. However, OARM could not
            provide the OIG the additional information without repeated extensions, leading
            to delays in issuing our report. The agency needs to address the unresolved
            recommendations in its response to the final report.




14-P-0272                                                                                    16
                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                                POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                    Planned
    Rec.    Page                                                                                                   Completion   Claimed    Agreed-To
    No.      No.                         Subject                           Status1        Action Official             Date      Amount      Amount

     1       15    Require that activities, personnel and                    U       Assistant Administrator for
                   subcontractors proposed by contractors at the                        Administration and
                   contract and task order levels be officially endorsed              Resources Management
                   in task order documentation.

     2       15    Require that changes in contractor personnel and          U       Assistant Administrator for
                   subcontractors at the contract and task order levels                 Administration and
                   are officially established by modification.                        Resources Management

     3       15    Require that CORs document a thorough and                 U       Assistant Administrator for
                   consistent review of work plans, MPRs, invoices,                     Administration and
                   receipts and deliverables.                                         Resources Management

     4       15    Beginning with the questionable G&A expenses              U       Assistant Administrator for                 $169
                   ($5,590) and subcontractor charges ($163,969) in                     Administration and
                   the invoices we sampled, conduct a review of all                   Resources Management
                   invoices from contract EP-W-07-067 to determine if
                   the EPA overpaid for G&A costs, other direct costs,
                   lagging costs and subcontracting costs.

     5       15    Develop and implement procedures to maintain a            U       Assistant Administrator for
                   complete contract file when transferred between                      Administration and
                   contracting officers.                                              Resources Management

     6       15    Require that T&M contracts abide by FAR                   U       Assistant Administrator for
                   requirements, such as having a determination and                     Administration and
                   findings document and a government quality                         Resources Management
                   assurance surveillance plan.

     7       15    Conduct a contract-wide review of contract                U       Assistant Administrator for
                   EP-W-07-067 to determine if government property                      Administration and
                   was improperly disposed.                                           Resources Management

     8       15    Develop and implement new or additional training          U       Assistant Administrator for
                   for EPA acquisition personnel to communicate new                     Administration and
                   requirements or expectations that arise from the                   Resources Management
                   recommendations and findings in this report.




1   O = Recommendation is open with agreed-to corrective actions pending.
    C = Recommendation is closed with all agreed-to actions completed.
    U = Recommendation is unresolved with resolution efforts in progress.




14-P-0272                                                                                                                                         17
                                                                                 Appendix A

                  Agency Response to Draft Report

                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460




                                         DEC 9 2013

                                                                                OFFICE OF
                                                                              ADMINISTRATION
                                                                              AND RESOURCES
                                                                               MANAGEMENT


MEMORANDUM

SUBJECT:      Response to Draft Audit Report OPE-FY11-0013: Weak Contract Management
              and Oversight Put EPA at Risk of Not Receiving Services for Which the Agency
              Paid

FROM:         Craig E. Hooks, Assistant Administrator

TO:           Carolyn Copper, Assistant Inspector General
              Office of Program Evaluation

OARM has reviewed draft OIG audit OPE-FY11-0013, and provides the following response to
audit findings and recommendations.

Recommendation 1: Require that activities, personnel and subcontractors proposed by
contractors at the contract and task order levels be officially endorsed in task order
documentation.

Recommendation 2: Require that changes in contractor personnel and subcontractors at the
contract and task order levels are officially established by modification.

OARM Response:

OARM proposes the following alternative corrective actions to resolve this recommendation.

The OIG’s findings and recommendations do not reflect contract terms and conditions. The OIG
references a Federal Acquisition Regulation clause (52.232-7 “Payments Under Time-and-
Materials and Labor-Hour-Contracts”) not used in the audited contract. EPAAR 1552.232-73
“Payments – fixed rate services contract” governed the invoice review and approval process in
the contract.



14-P-0272                                                                                      18
In spite of this disconnect between the contract terms and conditions and the audit, the EPA is
assessing policies and clauses related to EPAAR 1552.232-73 for consistency with FAR policies
and related clauses governing time-and-materials and labor-hour contracts. This assessment will
ensure consistency with the FAR, including the requirements for verifying personnel
qualifications which may be prescribed in contracts, during the invoice review and approval
process.

Additionally, as acknowledged on other recent OIG audits of fixed-rate contracts, EPA is
developing performance-based contracting guidance and associated training. This guidance will
prescribe that labor categories be defined by duties and responsibilities rather than by personnel
qualifications, which will mitigate the circumstances associated with this finding.

Finally, for key personnel identified in accordance with contract terms and conditions, pursuant
to EPAAR clause 1552.237-72 “Key Personnel” individual staff qualifications are already
verified prior to award, and also in instances where the contractor may replace staff.

Based upon the above explanation, OARM offers these alternative corrective actions to resolve
this recommendation.

______________________________________________________________________________

Recommendation 3: Require that Contracting Officer Representatives document a thorough and
consistent review of work plans, Minimal Program Requirements, invoices, receipts and
deliverables.

OARM Response:

OARM agrees and has already implemented the following policies which address the
circumstances supporting this recommendation. These policies ensure agency CORs consider
their contract management responsibilities (which includes payment) as part of the acquisition
planning process, and receive training on the proper review and disposition of invoices.

1. OARM implemented Interim Policy Notice (IPN) 12-03 “Acquisition Planning” on October
14, 2013, at http://oamintra.epa.gov/node/8?q=node/158. Although acquisition planning is a pre-
award activity, decisions made in the acquisition planning phase may either hinder or facilitate
post-award contract management activities. A critical goal of Interim Policy Notice 12-03 is to
ensure proper acquisition planning occurs in order to result in well defined requirements that will
enhance the agency’s ability to receive mission critical goods and services, and ensure those
goods and services meet contract performance requirements. In the context of audit findings, IPN
12-03 includes a discussion on service contracting.

2. Additionally, on September 27, 2013, OAM issued IPN 13-03 “EPA Federal Acquisition
Certification for Contracting Officer’s Representatives Three-Tiered Program” at
http://oamintra.epa.gov/node/8?q=node/158. This policy establishes EPA’s COR certification
and training requirements beginning in October 2013, and contains a requirement for CORs to



14-P-0272                                                                                        19
take four Continuous Learning Points in the financial management of contracts, to either obtain
or maintain certification. This class is designed to assist CORs on the financial management of
contracts by providing basic knowledge and advice for managing contract funds during the
invoice payment and close-out processes.

3. Lastly, OARM has begun developing a Contract Management Plan Guide which is a logical
follow-on to the above-described acquisition planning policy, and will establish processes and
procedures in support of post-award contract administration activities.

OARM will use the Self-Assessment and Peer Review components of the Balanced Scorecard
Performance Measurement and Management Program to monitor implementation and
compliance with these policies, and believes these corrective actions fully satisfy the above
recommendation.

______________________________________________________________________________

Recommendation 4: Beginning with the questionable G&A expenses ($5,590) and
subcontractor charges ($163,969) in the invoices we sampled, conduct a review of all invoices
from contract EP-W-07-067 to determine if the EPA overpaid for G&A costs, other direct costs,
lagging costs, and subcontracting costs.

OARM Response:

OARM agrees with this recommendation, and will initiate an internal financial management
review of contract EP-W-07-067, and take action based upon the review results. The FMR
objectives are attached. OARM believes that this corrective action fully satisfies the above
recommendations.

______________________________________________________________________________

Recommendation 5: Develop and implement procedures to maintain a complete contract file
when transferred between contracting officers.

Recommendation 6: Require that Time and Materials contracts abide by FAR requirements,
such as having a determination and findings document and a government quality assurance
surveillance plan.

Recommendation 8: Develop and implement new or additional training for EPA acquisition
personnel to communicate new requirements or expectations that arise from the
recommendations and findings in this report.

OARM Response:

OARM agrees and has already implemented the following policies which address the
circumstances supporting these recommendations.




14-P-0272                                                                                        20
With regard to contract file documentation, OARM has self-identified inadequate file
documentation as a recurring finding under the BSC PMMP Peer Review program, and has
directed a number of corrective actions. Updated policies include excerpts from the OAM
Acquisition Handbook “Update to Acquisition Handbook 4.1 Reviews, Concurrences, and
Checklists” (entire document at http://oamintra.epa.gov/node/47, and updated via IPN 12-03
“Acquisition Planning”), which contain contract checklists of documents to be filed in the
official contract file.
With regard to ensuring T&M contracts are supported by a determination and findings and
quality assurance surveillance plan, again the above described policies address both these
requirements. The OAM Acquisition Handbook 4.1 update includes a level above review for all
actions (item 2), and Service Center Manager approval for D&F’s in support of T&M contracts
(item 23).

Additionally, IPN 12-03 “Acquisition Planning”, includes guidance on contract surveillance
under service contracts. Lastly, OARM has begun developing a Contract Management Plan
Guide which is a logical follow-on to the above-described acquisition planning policy, and will
establish procedures in support of post-award contract administration activities, including
contract surveillance.

With regard to communicating and training acquisition personnel on these policies, OAM has
already been using the self-assessment and peer review components of the BSC PMMP to
identify knowledge and training weaknesses among agency staff, and has implemented solutions
(training, policy) to address those shortcomings. OARM will continue to monitor and ensure
compliance with these policies through the self-assessment and peer review components of the
BSC PMMP.

Based upon the above discussion, OARM believes these corrective actions fully satisfy the above
recommendation.

______________________________________________________________________________

Recommendation 7: Conduct a contract-wide review of contract EP-W-07-067 to determine if
government property was improperly disposed.

OARM Response:

OARM agrees with this recommendation, and will work with OARM /FMSD to investigate
property disposition on the above contract, and take action based upon review results.
Accordingly, OAM believes this corrective action fully satisfies the above recommendation.

Please contact John Bashista, director, Office of Acquisition Management at (202) 564-4310 if
you have any questions regarding this response.

Attachment




14-P-0272                                                                                       21
cc:
Eric Lewis
Byron Shumate
Nanci Gelb
John Bashista
Lisa Maass
John Showman
Steve Blankenship
Brandon McDowell
Marian P. Cooper




14-P-0272           22
                                                                                          Appendix B

                 OIG Response to Agency Comments
To address the agency’s comments, we broke its responses to the various recommendations into
multiple parts. A breakdown of the agency comments and our responses to those comments follow.


Recommendation #1: Require that activities, personnel and subcontractors proposed by
contractors at the contract and task order levels be officially endorsed in task order documentation.

Agency Response: OARM proposes the following alternative corrective actions to resolve this
recommendation:

1.1. “The EPA is assessing policies and clauses related to EPAAR 1552.232-73 for consistency with
FAR policies and related clauses governing time-and-materials and labor-hour contracts. This
assessment will ensure consistency with the FAR, including the requirements for verifying personnel
qualifications which may be prescribed in contracts, during the invoice review and approval process.”

1.2. “Additionally, as acknowledged on other recent OIG audits of fixed-rate contracts, EPA is
developing performance-based contracting guidance and associated training. This guidance will
prescribe that labor categories be defined by duties and responsibilities rather than by personnel
qualifications, which will ensure consistency with the FAR, including the requirements for verifying
personnel qualifications which will mitigate the circumstances associated with this finding.”

1.3. “Finally, for key personnel identified in accordance with contract terms and conditions, pursuant
to EPAAR clause 1552.237-72 “Key Personnel” individual staff qualifications are already verified
prior to award, and also in instances where the contractor may replace staff.”

 OIG Evaluation for Recommendation 1: The recommendation is unresolved.

 Based on the information provided, it is not clear how the information addresses the intent of the
 recommendation:
  Proposed Action 1.1: The OIG agrees that the agency should require verification of personnel
     qualifications, including during the invoice review and approval process. However, it is not clear
     how the proposed consistency review between the FAR and EPAAR addresses our finding, as
     neither require task order awards to clearly identify activities, personnel and subcontractors.
  Proposed Action 1.2: It is unclear how developing performance-based contracting guidance will
     mitigate the circumstances associated with this finding. Contract EP-W-07-067 is a T&M contract,
     not a performance-based contract.
  Proposed Action 1.3: The OIG agrees that EPAAR 1552.237-72 provides a mechanism for
     replacement and establishment of key personnel at the contract level. However, it does not address
     key personnel, other contractor personnel or subcontractors at the task order level.

 In its response to the final report, the agency needs to include the following:
  A statement of agreement or disagreement with the recommendation.
  Corrective actions which are responsive to the recommendation or clarification as to why the
      proposed actions are responsive.
  An estimated completion date for any planned corrective actions.



14-P-0272                                                                                              23
Recommendation #2: Require that changes in contractor personnel and subcontractors at the
contract and task order levels are officially established by modification.

Agency Response: OARM proposes the following alternative corrective actions to resolve this
recommendation:

2.1. “The EPA is assessing policies and clauses related to EPAAR 1552.232-73 for consistency with
FAR policies and related clauses governing time-and-materials and labor-hour contracts. This
assessment will ensure consistency with the FAR, including the requirements for verifying personnel
qualifications which may be prescribed in contracts, during the invoice review and approval process.”

2.2. “Additionally, as acknowledged on other recent OIG audits of fixed-rate contracts, EPA is
developing performance-based contracting guidance and associated training. This guidance will
prescribe that labor categories be defined by duties and responsibilities rather than by personnel
qualifications, which will ensure consistency with the FAR, including the requirements for verifying
personnel qualifications, which will mitigate the circumstances associated with this finding.”

2.3. “Finally, for key personnel identified in accordance with contract terms and conditions, pursuant
to EPAAR clause 1552.237-72 “Key Personnel” individual staff qualifications are already verified
prior to award, and also in instances where the contractor may replace staff.”

 OIG Evaluation for Recommendation 2: The recommendation is unresolved.

 Based on the information provided, it is not clear how the information addresses the intent of the
 recommendation:
  Proposed Action 2.1: The OIG agrees that the agency should require verification of personnel
     qualifications, including during the invoice review and approval process. However, it is not clear
     how the proposed consistency review between the FAR and EPAAR addresses our finding that
     personnel and subcontractors used in task orders were difficult to discern.
  Proposed Action 2.2: It is unclear how developing performance-based contracting guidance will
     mitigate the circumstances associated with this finding. Contract EP-W-07-067 is a T&M contract,
     not a performance-based contract.
  Proposed Action 2.3: The OIG agrees that EPAAR 1552.237-72 provides a mechanism for
     replacement and establishment of key personnel at the contract level. However, it does not address
     (1) contractor personnel or subcontractors at the contract level; or (2) key personnel, other
     contractor personnel or subcontractors at the task order level.

 In response to the final report, the agency needs to include the following:
    A statement of agreement or disagreement with the recommendation.
    Corrective actions which are responsive to the recommendation or clarification as to why the
       proposed actions are responsive.
    An estimated completion date for any planned corrective actions.




14-P-0272                                                                                              24
Recommendation #3: Require that CORs document a thorough and consistent review of work
plans, MPRs, invoices, receipts and deliverables.

Agency Response: “OARM agrees and has already implemented the following policies which
address the circumstances supporting this recommendation. These policies ensure agency CORs
consider their contract management responsibilities (which includes payment) as part of the
acquisition planning process, and receive training on the proper review and disposition of invoices.”

3.1. “OARM implemented Interim Policy Notice (IPN) 12-03 “Acquisition Planning” on October 14,
2013, at http://oamintra.epa.gov/node/8?q=node/158. Although acquisition planning is a pre-award
activity, decisions made in the acquisition planning phase may either hinder or facilitate post-award
contract management activities. A critical goal of Interim Policy Notice 12-03 is to ensure proper
acquisition planning occurs in order to result in well defined requirements that will enhance the
agency’s ability to receive mission critical goods and services, and ensure those goods and services
meet contract performance requirements. In the context of audit findings, IPN 12-03 includes a
discussion on service contracting.”

3.2. “Additionally, on September 27, 2013, OAM issued IPN 13-03 “EPA Federal Acquisition
Certification for Contracting Officer’s Representatives Three-Tiered Program” at
http://oamintra.epa.gov/node/8?q=node/158. This policy establishes EPA’s COR certification and
training requirements beginning in October 2013, and contains a requirement for CORs to take four
Continuous Learning Points in the financial management of contracts, to either obtain or maintain
certification. This class is designed to assist CORs on the financial management of contracts by
providing basic knowledge and advice for managing contract funds during the invoice payment and
close-out processes.”

3.3. “Lastly, OARM has begun developing a Contract Management Plan Guide which is a logical
follow-on to the above-described acquisition planning policy, and will establish processes and
procedures in support of post-award contract administration activities.”

3.4. “OARM will use the Self-Assessment and Peer Review components of the Balanced Scorecard
Performance Measurement and Management Program to monitor implementation and compliance
with these policies.”

 OIG Evaluation for Recommendation 3: The recommendation is unresolved.

 Based on the information provided, it is not clear how the information addresses the intent of the
 recommendation:
  Proposed Action 3.1: The OIG reviewed IPN 12-03 and could find nothing relevant to
     documentation of COR reviews. Further, the OIG found nothing in the discussion on service
     contracting in IPN 12-03 Section L relevant to the context of audit findings.
  Proposed Action 3.2: The OIG reviewed IPN 13-03 and found mandatory coursework for
     instructing CORs in financial management. This is not the same as requiring them to document
     their reviews.
  Proposed Action 3.3: The OIG is supportive of the formulation of a Contract Management Plan
     Guide. However, the assurance that it will establish processes and procedures in support of post-
     award contract administration activities, as described, does not provide sufficient detail to address
     COR documentation of reviews.
  Proposed Action 3.4: We appreciate OARM’s commitment to following up on its implementation
     and compliance with the Balanced Scorecard Performance Measurement and Management
     Program. However, as discussed above, the proposed actions do not meet the intent of the
     recommendation.


14-P-0272                                                                                                25
 In response to the final report, the agency needs to include the following:
  Corrective actions which are responsive to the recommendation or clarification as to why the
      proposed actions are responsive.
  An estimated completion date for any planned corrective actions.

 In the recommendation, and in the context of the report, the OIG uses MPRs as the abbreviation for
 monthly progress reports. However, in the agency’s response, it refers to MPRs as minimal program
 requirements. The agency needs to take note of this, as it could affect its interpretation of the
 recommendation.

Recommendation #4: Beginning with the questionable G&A expenses ($5,590) and subcontractor
charges ($163,969) in the invoices we sampled, conduct a review of all invoices from contract EP-W-
07-067 to determine if the EPA overpaid for G&A costs, other direct costs, lagging costs, and
subcontracting costs.

Agency Response:

“OARM agrees with this recommendation, and will initiate an internal financial management review
of contract EP-W-07-067, and take action based upon the review results.”

 OIG Evaluation for Recommendation 4: The corrective action is acceptable, but the
 recommendation is unresolved until an estimated completion date is provided.

Recommendation #5: Develop and implement procedures to maintain a complete contract file
when transferred between contracting officers.

Agency Response:

“OARM agrees and has already implemented the following which address the circumstances
supporting this recommendation.”

“With regard to contract file documentation, OARM has self-identified inadequate file documentation
as a recurring finding under the BSC PMMP Peer Review program, and has directed a number of
corrective actions. Updated policies include excerpts from the OAM Acquisition Handbook “Update
to Acquisition Handbook 4.1 Reviews, Concurrences, and Checklists” (entire document at
http://oamintra.epa.gov/node/47, and updated via IPN 12-03 “Acquisition Planning”), which contain
contract checklists of documents to be filed in the official contract file.”

 OIG Evaluation for Recommendation 5: The recommendation is unresolved.
 The OIG reviewed the updates to Acquisition Handbook 4.1 and was unable to locate any requirement
 specific to the recommendation to develop and implement procedures to maintain a complete contract
 file when transferred between contracting officers.
 In its response to the final report, the agency needs to include the following:
  Corrective actions which are responsive to the recommendation or clarification as to why the
      proposed actions are responsive.
  An estimated completion date for any planned corrective actions.
  A separate narrative for each recommendation. The agency used one narrative to respond to
      recommendations 5, 6 and 8, and it is unclear which components of the proposed actions apply to
      which recommendations.


14-P-0272                                                                                             26
Recommendation #6: Require that T&M contracts abide by FAR requirements, such as having a
determination and findings document and a government quality assurance surveillance plan.

Agency Response: “OARM agrees and has already implemented the following which address the
circumstances supporting this recommendation.”

6.1. “With regard to ensuring T&M contracts are supported by a determination and findings and
quality assurance surveillance plan, again the above described policies (in previous
recommendations) address both these requirements. The OAM Acquisition Handbook 4.1 update
includes a level above review for all actions (item 2), and Service Center Manager approval for
D&F’s in support of T&M contracts (item 23).”

6.2. “Additionally, IPN 12-03 “Acquisition Planning”, includes guidance on contract surveillance
under service contracts.”

6.3. “Lastly, OARM has begun developing a Contract Management Plan Guide which is a logical
follow-on to the above-described acquisition planning policy, and will establish procedures in support
of post-award contract administration activities, including contract surveillance.”

 OIG Evaluation for Recommendation 6: The recommendation is unresolved.

 Based on the information provided, it is not clear how the information addresses the intent of the
 recommendation:
  Proposed Action 6.1: Though the Assignment Handbook update requires Service Center Manager
     approval for a determinations and findings document in support of T&M contracts, the FAR (i.e.,
     FAR 16.601(d)) requires a T&M determinations and findings document approval by the head of
     the contracting activity, not just the Service Center Manager.
  Proposed Action 6.2: The referenced guidance appears to apply solely to performance-based
     service contracts, not T&M contracts.
  Proposed Action 6.3: The OIG is supportive of the formulation of a Contract Management Plan
     Guide. However, the assurance that it will establish processes and procedures in support of post-
     award contract administration activities, as described, does not provide sufficient detail to address
     the need for contract surveillance.

 In response to the final report, the agency needs to include the following:
  Corrective actions which are responsive to the recommendation or clarification as to why the
      proposed actions are responsive.
  An estimated completion date for any planned corrective actions.
  A separate narrative for each recommendation. The agency used one narrative to respond to
      recommendations 5, 6 and 8, and it is unclear which components of the proposed actions apply to
      which recommendations.




14-P-0272                                                                                                27
Recommendation #7: Conduct a contract-wide review of contract EP-W-07-067 to determine if
government property was improperly disposed.

Agency Response: “OARM agrees with this recommendation, and will work with OARM /FMSD to
investigate property disposition on the above contract, and take action based upon review results.”

 OIG Evaluation for Recommendation 7: The corrective action is acceptable, but the
 recommendation is unresolved until an estimated completion date is provided.


Recommendation #8: Develop and implement new or additional training for EPA acquisition
personnel to communicate new requirements or expectations that arise from the recommendations
and findings in this report.

Agency Response:

“OARM agrees and has already implemented the following policies which address the circumstances
supporting these recommendations.”

“With regard to communicating and training acquisition personnel on these policies, OAM has
already been using the self-assessment and peer review components of the BSC PMMP to identify
knowledge and training weaknesses among agency staff, and has implemented solutions (training,
policy) to address those shortcomings. OARM will continue to monitor and ensure compliance with
these policies through the self-assessment and peer review components of the BSC PMMP.”

 OIG Evaluation for Recommendation 8: The recommendation is unresolved.

 Based on the information provided, it is not clear how the information addresses the intent of the
 recommendation. We are supportive of OARM’s proactive self-identification of training needs, but the
 draft report has also identified training needs.

 In response to the final report, the agency needs to include the following:
  Corrective actions which are responsive to the recommendation or clarification as to why the
      proposed actions are responsive.
  An estimated completion date for any proposed corrective actions.
  A separate narrative for each recommendation. The agency used one narrative to respond to
      recommendations 5, 6 and 8, and it is unclear which components of the proposed actions apply to
      which recommendations.




14-P-0272                                                                                             28
                                                                              Appendix C

                                   Distribution
Office of the Administrator
Assistant Administrator for Administration and Resources Management
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Principal Deputy Assistant Administrator, Office of Administration and Resources Management
Director, Office of Acquisition Management, Office of Administration and
       Resources Management
Director, Office of Administration, Office of Administration and Resources Management
Director, Office of Policy and Resources Management, Office of Administration and
       Resources Management
Deputy Director, Office of Acquisition Management, Office of Administration and
       Resources Management
Deputy Director, Office of Policy and Resources Management, Office of Administration and
       Resources Management
Director, Headquarters Procurement Operations Division, Office of Acquisition Management,
       Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Acquisition Management, Office of Administration and
       Resources Management




14-P-0272                                                                                29
